fn

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@eocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 wwwcocklelegalbriefs.com

Fax: (402) 342-4850
No. 21-44

KEVIN LEE BOUTTE,
Petitioner,
Vv.
YVONNE RENEA BOUTTE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes. and this brief contains 3976 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d). as needed.

Subscribed and sworn to before me this 12th day of August, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

ie MOTARY-State of Nebraska XZ : / ),
RENEE J. GOSS 9. ¢ ded rear .

Affiant

 

 

f My Comm. Exp. September 5, 2023,

Notary Public 41308
